NO. 21-57
In the

Supreme Court of the United States
________________

LEVI FRASIER,
v.

Petitioner,

CHRISTOPHER EVANS, et al,
________________

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
________________
BRIEF IN OPPOSITION
________________
KRISTIN M. BRONSON
Counsel of Record
DENVER CITY
ATTORNEY’S OFFICE
201 W. Colfax Avenue
Denver, CO 80202
(720) 913-3107
kristin.bronson@denvergov.org
Counsel for Respondents
October 7, 2021

QUESTION PRESENTED
For nearly 40 years, this Court has repeatedly
held that police officers are entitled to qualified
immunity unless every reasonable officer would
understand that the conduct in question violated
clearly established law. The Court has always relied
on judicial authorities to determine the scope and
content of clearly established federal law. Petitioner
claims that Denver police officers violated his First
Amendment rights by trying to get him to share with
them video footage that he repeatedly falsely denied
having recorded of them conducting a narcotics arrest.
The district court concluded that the officers’ conduct
did not violate clearly established law, but nonetheless
concluded that they are not entitled to qualified
immunity because they concededly were trained that
the public has a right to record the police carrying out
their duties in public. A unanimous Tenth Circuit
panel reversed that decision as squarely foreclosed by
this Court’s repeated holdings that an officer’s
subjective knowledge is irrelevant to the objective
reasonable-officer test. The panel further agreed with
the district court that the officers’ conduct did not
violate any clearly established law.
Petitioner’s questions presented are:
1. Whether localized police training manuals or
law enforcement policies alone can suffice to deprive
an officer of qualified immunity even if the officer’s
conduct did not violate any clearly established law.
2. Whether the assumed right to record police
officers carrying out their duties in public was clearly
established in the Tenth Circuit in 2014.

ii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE ................................... 3
A. Factual Background ..................................... 3
B. Proceedings Below ........................................ 7
REASONS FOR DENYING THE PETITION ......... 14
I.

The First Question Presented Does Not
Warrant This Court’s Review ........................... 17
A. The Decision Below Faithfully Followed
Settled Supreme Court Precedent ............. 17
B. The Decision Below Does Not Conflict
With Any Decision Of Any Other Courts
Of Appeals .................................................. 21
C. There Is No Good Reason To Overrule
Decades Of Precedent And Embrace
Petitioner’s Unworkable Rule .................... 24

II. The Second Question Presented Does Not
Warrant This Court’s Review ........................... 27
CONCLUSION ......................................................... 31

iii
TABLE OF AUTHORITIES
Cases
ACLU of Ill. v. Alvarez,
679 F.3d 583 (7th Cir. 2012).................................. 27
Anderson v. Creighton,
483 U.S. 635 (1987).................................... 12, 17, 25
Ashcroft v. al-Kidd,
563 U.S. 731 (2011).......................................... 11, 20
Booker v. S.C. Dep’t of Corr.,
855 F.3d 533 (4th Cir. 2017).................................. 23
Champion v. Outlook Nashville, Inc.,
380 F.3d 893 (6th Cir. 2004).................................. 23
City & Cnty. of S.F. v. Sheehan,
575 U.S. 600 (2015)................................ 3, 19, 20, 24
City of Escondido v. Emmons,
139 S.Ct. 500 (2019)............................. 11, 17, 20, 26
Cox v. Wilson,
971 F.3d 1159 (10th Cir. 2020).............................. 12
District of Columbia v. Wesby,
138 S.Ct. 577 (2018)............................. 13, 17, 20, 30
Drummond ex rel. Drummond
v. City of Anaheim,
343 F.3d 1052 (2003) ............................................. 22
Fields v. City of Philadelphia,
862 F.3d 353 (3d Cir. 2017) ............................. 27, 28
Fordyce v. City of Seattle,
55 F.3d 436 (9th Cir. 1995).................................... 27
Glik v. Cunniffe,
655 F.3d 78 (1st Cir. 2011) ........................ 27, 28, 30

iv
Harlow v. Fitzgerald,
457 U.S. 800 (1982).............................. 12, 17, 24, 25
Hope v. Pelzer,
536 U.S. 730 (2002).................................... 20, 21, 29
Kelly v. Borough of Carlisle,
622 F.3d 248 (3d Cir. 2010) ................................... 27
Kisela v. Hughes,
138 S.Ct. 1148 (2018)............................................. 17
Maye v. Klee,
915 F.3d 1076 (6th Cir. 2019)................................ 24
Mullenix v. Luna,
136 S.Ct. 305 (2015)............................................... 30
Nieves v. Bartlett,
139 S.Ct. 1715 (2019)..................................... passim
O’Doan v. Sanford,
991 F.3d 1027 (9th Cir. 2021)................................ 29
Okin v. Village of Cornwall-on-Hudson
Police Dep’t,
577 F.3d 415 (2d Cir. 2009) ................................... 23
Plumhoff v. Rickard,
572 U.S. 765 (2014)................................................ 26
Raiche v. Pietroski,
623 F.3d 30 (1st Cir. 2010) .................................... 23
Reichle v. Howards,
566 U.S. 658 (2012)................................................ 17
Smith v. City of Cumming,
212 F.3d 1332 (11th Cir. 2000).............................. 27
Taylor v. Riojas,
141 S.Ct. 52 (2020)........................................... 12, 29

v
Treats v. Morgan,
308 F.3d 868 (8th Cir. 2002).................................. 22
Turner v. Driver,
848 F.3d 678 (5th Cir. 2017)............................ 27, 28
Vasquez v. Cnty. of Kern,
949 F.3d 1153 (9th Cir. 2020)................................ 21
Wilson v. Layne,
526 U.S. 603 (1999).......................................... 20, 21
Wood v. Strickland,
420 U.S. 308 (1975)................................................ 18
Other Authority
C.R.S. §18-8-111(1)(a)(III) .......................................... 9

INTRODUCTION
This case presents a straightforward and factbound application of settled principles of qualified
immunity. Under this Court’s cases, a police officer is
entitled to qualified immunity unless it is clearly
established that his conduct violated a statutory or
constitutional right. Here, petitioner video recorded
Denver police officers using force to arrest a suspected
drug trafficker who was trying to swallow a sock full
of what they (correctly) believed to be narcotics. The
officers then asked petitioner for the video, which
could be important evidence in the narcotics case and
in the investigation that typically occurs when officers
must use force to detain a suspect. Yet rather than
provide the recording, or even admit that he had taken
one but decline to share it, petitioner lied—repeatedly.
Eventually, he admitted that he had recorded the
encounter after multiple officers told him they had
seen him do so. Even then, however, he never supplied
them with the video, and he ultimately left the scene
of the arrest within about 20 minutes, after the
officers shook his hand and thanked him for his help.
Petitioner proceeded to release the recording that
he had falsely denied taking to the media—even as he
falsely claimed that the officers had deleted it—and to
sue the officers for, among other things, purportedly
retaliating against him for exercising his claimed First
Amendment right to record them. The district court
initially concluded that the officers are entitled to
qualified immunity because their actions did not
violate any clearly established law. But the court then
changed its mind and determined that it did not
matter if the officers violated any clearly established

2
law because they acknowledged knowing that the
public has a right to record the police in public. The
Tenth Circuit then reversed that conclusion as
foreclosed by this Court’s repeated holdings that an
officer’s subjective knowledge is irrelevant to the
qualified-immunity analysis. That decision is correct
and does not warrant this Court’s review.
As for the first question presented, whatever role
(if any) officer training may have to play in qualifiedimmunity analysis, it is well-settled that it cannot
play either of the roles petitioner urges—i.e.,
supplanting the need for clearly established law or
displacing the objective reasonable-officer test
entirely. To conclude otherwise would require this
Court to overrule decades of precedent, a step that
petitioner does not even try to demonstrate would be
appropriate. As for the second question presented, no
circuit has embraced (and both courts below rejected)
petitioner’s contention that “[b]asic First Amendment
principles” render the right to record police in public
sufficiently “obvious” to be clearly established. Even
if they did, moreover, that would not change the
bottom line here, for the qualified-immunity analysis
focuses on whether it was clearly established that an
officer’s conduct violated the law at the time. After
this Court’s decision in Nieves v. Bartlett, 139 S.Ct.
1715 (2019), it is exceedingly unlikely that petitioner
has even stated a viable First Amendment retaliation
claim, but he certainly has not identified any clearly
established First Amendment violation. All of that
makes this an exceptionally poor vehicle for exploring
the various contours of qualified-immunity doctrine
that petitioner invites the Court to (re)examine. The
Court should deny the petition in its entirety.

3
STATEMENT OF THE CASE
A. Factual Background 1
On August 14, 2014, Detective John Bauer was
surveilling a parking lot in plain clothes in Denver,
Colorado, when he observed what appeared to be a
drug deal involving the driver of a sedan. Pet.App.8a;
A225-26. Drug deals were common in that parking lot,
so Bauer “call[ed] … out” the suspected transaction on
his radio. A225. He then engaged the suspect,
announced “police,” and attempted to arrest the
suspect with the aid of Sergeant Bothwell, who had
arrived at the scene. A225-26. The suspect resisted
directives to get out of his car, reached for his
waistband, and, after Bauer pulled him from his car,
attempted to swallow a sock that the officers believed
contained contraband and posed a threat to his life.
Pet.App.8a; A227. The officers ordered him to spit out
the sock, but he refused, and a struggle ensued.
Pet.App.8a; A227.
While attempting to get the suspect to release the
sock, Bauer saw petitioner Levi Frasier, who was
standing nearby trying (initially unsuccessfully) to
record the struggle, and asked him for help.
Pet.App.8a; A228. Frasier ignored the request at first,
but after Bauer asked a second time, Frasier asked if
they were police, and, once Bauer confirmed that they
were, aided the officers by grabbing ahold of the sock.
Pet.App.8a; A228.
Officers Charles Jones and
Christopher Evans soon arrived to assist, however,
1 This case arises in a summary-judgment posture, so the facts
are construed in the light most favorable to petitioner. See City
& Cnty. of S.F. v. Sheehan, 575 U.S. 600, 603 (2015).

4
and instructed Frasier to step back. Id. At that point,
Frasier stepped back about ten feet and began
recording with his tablet. Pet.App.8a.
Meanwhile, the suspect continued to refuse the
officers’ repeated commands to spit out the sock, so
Officer Jones rapidly struck him in the face six times
to try to get him to release it, which he finally did.
Pet.App.8a. At some point, Sergeant Bothwell noticed
Frasier recording and announced “camera.”
Pet.App.9a. As the officers continued to struggle with
the suspect, a pregnant woman who had been in the
car with him approached the group screaming and
tried to insert herself between him and the officers.
A1012. Jones reached out and pushed her back by the
shoulder as Evans took her ankle and pulled her to the
ground. A1012. Eventually, the officers were able to
handcuff the suspect, at which point Frasier stopped
recording, returned to his nearby van, and stashed the
tablet in the back seat. Pet.App.9a.
Having finally subdued the suspect, Officer Evans
approached Frasier and asked him to bring his
identification and the video he had just recorded to the
squad car to make a witness statement. Pet.App.9a;
A243-44. Frasier did not follow Evans immediately,
but rather sat down in his van to smoke a cigarette.
A490. Frasier later explained that he saw no need to
follow right away because “[i]t wasn’t like I was under
arrest. He didn’t—you know, I mean, he just asked
me to come up to the car.” A490-91. Frasier
eventually came over to Evans’ car with his driver’s
license, but not his tablet. Pet.App.9a. Evans asked
where the video was, but Frasier did not respond.
A491. Evans then told Frasier that he needed to get a

5
witness statement from him and, after retrieving the
requisite paperwork from his car, asked Frasier about
the video again. A1013. According to Frasier, when
he again did not respond, Evans then said, “Well, we
could do this the easy way or we could do this the hard
way.” A491. Frasier still did not respond. A491.
After Frasier completed a witness statement,
Officer Evans wrote down some additional questions
for him to answer. A258-60. One was whether Frasier
saw any officers do anything inappropriate, to which
Frasier responded “no.” A258. Another was whether
the officers stopped using force as soon as they had the
suspect in custody, to which Frasier responded “yes.”
A260. The final question was whether he had taken
any video footage, to which Frasier (falsely) answered
“a Snapchat.” A260. Officer Evans, who was not
familiar with Snapchat, asked Frasier questions about
it, and Frasier told him (again, falsely) that he had
taken only a photograph that had disappeared as soon
as he sent it to “Ali Quinn, Snapchat name Trashman
555.” Pet.App.10a; A260. While Frasier attested that
everything in his witness statement was “true, to the
best of [his] knowledge and belief,” he later conceded
that these (and other) statements he provided were
lies. Pet.App.10a; A260.
After Frasier completed the witness statement,
another officer whose identity he cannot recall asked
him for the video. Pet.App.10a. Frasier lied again,
but the officer responded that they had seen him
recording the encounter. Pet.App.10a. At that point,
Officer Evans told Frasier to get his cell phone.
Pet.App.10a. Frasier did so, but another officer
indicated that the recording device had been larger

6
than a cell phone. Pet.App.10a. Frasier then lied yet
again, claiming that he did not have any other device.
Pet.App.10a.
Some other officers joined the conversation, and
Frasier ultimately admitted that he did indeed have a
tablet, which he agreed to retrieve from his van.
Pet.App.11a; A251. Instead of showing the officers the
video he had recorded, however, he first showed
Officer Evans a recording of Frasier engaging in a
cage-fighting match. Pet.App.11a; A251. The officers’
body cameras captured this exchange, showing
Frasier holding a tablet while Evans looked over his
shoulder. A1015-16. The footage shows Evans raise a
piece of paper to try to shield the tablet from glare and
then move with Frasier to the rear hatch of a nearby
truck for more shade. A1016. Evans and Frasier then
stood behind the truck for about four minutes, during
which time they were mostly hidden from the view of
the video. A1016.
According to Frasier, at some point during those
four minutes, Evans took the tablet from him without
his permission and began to review it, looking for the
video. Pet.App.11a; A253. Frasier claims that he told
Evans he could not look at his tablet without a
warrant, but that Evans continued to scroll through
the tablet anyway until ultimately “holler[ing] over
his shoulder” that he could not find any video.
Pet.App.11a; A253.
According to Frasier, an
unidentified officer responded, “[a]s long as there’s no
video, it’s okay,” at which point Evans returned his
tablet. Pet.App.11a; A253. Evans then asked Frasier
whether he had anything to add to his witness
statement. Frasier asked if he could leave and was

7
told yes.
Pet.App.11a.
Evans returned his
identification, thanked him for his help, and shook his
hand. Pet.App.11a; A255. Frasier left, ending his
interaction with the officers 23 minutes after it began,
and without ever sharing with them the video footage
of the arrest that he had falsely denied recording.
Pet.App.11a-12a.
B. Proceedings Below

1. A few months after the incident, Frasier took to
the press, claiming that the officers had deleted the
video from his tablet to try to cover up a purportedly
improper use of force. A1017. Notwithstanding this
claim, however, Frasier managed to locate the
allegedly deleted video and supply it to the media.
Pet.8. Troubled by Frasier’s serious accusations, the
Denver Police Department Internal Affairs Bureau
launched an investigation. A1017. Frasier agreed to
surrender his tablet for forensic analysis as part of the
investigation, and the analysis revealed that the video
was not and had not ever been deleted from the device.
A1017.
Meanwhile, Frasier decided to sue the City and
County of Denver and the five officers involved in the
events of August 14 under 42 U.S.C. §1983, claiming,
among other things, that they unlawfully retaliated
against him for exercising his First Amendment right
to record the arrest and unlawfully seized him and
searched his tablet. A20-30. Frasier claims to have
suffered emotional distress and seeks compensatory
and punitive damages.
As relevant here, the officers moved to dismiss
Frasier’s retaliation claim, arguing that they did not
violate any clearly established law by trying to obtain

8
video evidence of an arrest from an eyewitness who
repeatedly falsely denied having taken it. A36-37;
A40-42. The district court initially agreed. A174;
Pet.App.13a-14a. After noting that the Tenth Circuit
had not weighed in on whether the First Amendment
protects a right to record the police engaged in their
official duties in public, that several circuits had held
that such a right was not “clearly established” by
reference to general First Amendment principles, and
that cases in which a violation of such a right had been
found were factually distinguishable, the court
concluded that existing case law in August 2014 was
insufficient “to have put the individual officer
defendants on notice that their conduct with respect
to plaintiff violated a clearly established First
Amendment right.” A174-75; A177.
2. Certain other claims went forward, and the case
proceeded to discovery. During the course of that
discovery, both Frasier and the officers were deposed.
During his deposition, Frasier testified that his
interactions with the officers that day had been
“friendly”; that the officers repeatedly thanked him for
his help; that no one ever threatened him, restrained
him, or told him he could not leave; and that he never
asked the officers if he could leave until the very end
of the encounter, at which point they said yes. A494;
496, 501.
The officers, for their part, readily acknowledged
and defended the force they had used to try to get the
suspect to release his hold on the sock full of narcotics.
A228; A266-67; A281. They also readily acknowledged
that they had been trained that members of the public
have a right to record the police. Pet.App.13a; A228-

9
29; A264; A279. But contrary to petitioner’s claims, no
officer ever “testified that they knew they were
violating petitioner’s rights.” Pet.3. The officers
instead testified that they were simply trying to
determine whether any video footage existed and, if
so, obtain it because it could be “evidence to a potential
narcotics arrest and also part of a use-of-force
investigation.” A280.
3. After the close of discovery, the officers filed a
motion for partial summary judgment. A187. 2 The
district court granted summary judgment to the
officers on Frasier’s unlawful detention claim, finding
that even if the officers detained Frasier—a conclusion
that the district court did not reach—they engaged in
a permissible investigatory detention because there
was reasonable suspicion that Frasier made a false
report to the police in violation of Colorado law when
he repeatedly denied having taken any recording.
A1022-25 (citing C.R.S. §18-8-111(1)(a)(III)). 3
Meanwhile, Frasier asked the district court to
reconsider its holding that respondents are entitled to
qualified immunity on his retaliation claim, arguing
that even if it was not clearly established law that
their conduct violated the First Amendment, they
subjectively knew that it did because of their training.
Pet.App.64a. In a memorandum order issued on the
same day that it granted partial summary judgment
to the officers, the district court agreed with Frasier
The officers moved for summary judgment as to all remaining
claims except for the unlawful search and seizure claim against
Officer Evans with respect to Frasier’s tablet. A187 n.1.
2

3 The district court also granted summary judgment to the City
and County of Denver on all remaining claims against it. A1036.

10
and reinstated his First Amendment retaliation claim.
Pet.App.64a-65a. The court reiterated its conclusion
that respondents did not violate any law that was
clearly established in 2014, but nevertheless
determined that they are not entitled to qualified
immunity based solely on their acknowledgements
that they had been told during training courses that
people have a right to record police officers performing
their official duties in public. Pet.App.65a, 67a. The
court did not engage in any analysis of whether it was
clearly established law that anything respondents did
on August 14 actually violated Frasier’s First
Amendment rights.
Respondents moved for summary judgment on the
reinstated retaliation claim, arguing (among other
things) that the claim failed as a matter of law because
Frasier’s repeated false statements to the officers
about potentially relevant evidence provided an
objectively reasonable basis for any potential
detention.
A1049-55.
And while respondents
continued to take issue with the district court’s
conclusion that training materials sufficed to render
the claimed right to record police clearly established,
they also argued that they are entitled to qualified
immunity even assuming that right was clearly
established because “it cannot be said that any
reasonable officer would know that this right
somehow prohibited them from attempting to obtain
evidence for purposes of investigating a crime and for
a subsequent investigation into the force the officers
used to arrest the suspect.” A1059-60.
In a decision issued before this Court’s decision in
Nieves v. Bartlett, 139 S.Ct. 1715 (2019), the district

11
court denied the motion for summary judgment.
A1121. The court did not disturb its earlier finding
and conclusion that any “seizure was a permissible
investigatory detention because Officer Evans had
reasonable suspicion based on articulable facts that
Mr. Frasier made a false report to the police.” A102223. But the court concluded that the claim could go
forward based on that same “permissible investigatory
detention” because there “are genuine disputes of
material fact regarding whether defendants’ actions
were substantially motivated by a desire to retaliate
against Mr. Frasier for recording the arrest.” A1127.
The court once again did not address whether any
clearly established law would have put the officers on
notice that their specific actions, in the context of an
eyewitness who repeatedly lied to them about being in
possession of important video evidence of an arrest,
actually violated the First Amendment.
4. The Tenth Circuit reversed the district court’s
summary judgment order. Writing for a unanimous
panel, Judge Holmes explained the governing legal
standard: “Qualified immunity attaches when an
official’s conduct does not violate clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Pet.App.17a18a (quoting City of Escondido v. Emmons, 139 S.Ct.
500, 503 (2019) (per curiam)). The “contours of a
right” must be “sufficiently clear that every reasonable
official would have understood that what he is doing
violates that right.” Pet.App.17a (alterations omitted)
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)).
In the Tenth Circuit, to show clearly established law,
a plaintiff “must point to a Supreme Court or Tenth
Circuit decision on point, or the clearly established

12
weight of authority from other courts must have found
the law to be as the plaintiff maintains.” Pet.App.18a
(quoting Cox v. Wilson, 971 F.3d 1159, 1171 (10th Cir.
2020)). Only in “‘extreme circumstances’” do “general
constitutional principles” suffice to “give reasonable
government officials fair warning that their conduct is
constitutionally or statutorily unlawful.” Pet.App.19a
(quoting Taylor v. Riojas, 141 S.Ct. 52, 53 (2020) (per
curiam)).
Applying those black-letter legal principles, the
panel concluded that “the district court erred in
concluding that the officers were not entitled to
qualified immunity because they actually knew from
their training that such a First Amendment right
purportedly existed—even though the court had
determined that they did not violate any clearly
established right.” Pet.App.20a.
Two principles guided the court’s analysis. First,
and “most significantly,” the panel reiterated that
qualified immunity is “judged by an objective standard
and, therefore, what the officer defendants
subjectively understood or believed the law to be was
irrelevant with respect to the clearly-established-law
question.” Pet.App.20a. As this Court explained in
Anderson v. Creighton, “an officer’s ‘subjective beliefs
about [whether his conduct was lawful] are
irrelevant.’” Pet.App.22a-23a (quoting 483 U.S. 635,
641 (1987)). The panel expressly “reject[ed] the idea
that Harlow [v. Fitzgerald, 457 U.S. 800 (1982)]
permits an exception to its objective standard based
on an official’s subjective understanding or knowledge
of the law.” Pet.App.24a. The panel accordingly
concluded that the district court erred by denying

13
respondents qualified immunity based solely on “their
subjective knowledge” of Frasier’s “purported First
Amendment right.” Pet.App.23a.
Second, relying on this Court’s decision in District
of Columbia v. Wesby, 138 S.Ct. 577 (2018), the panel
observed that “judicial decisions are the only valid
interpretive source of the content of clearly
established law, and, consequently, whatever training
the officers received concerning the nature of Mr.
Frasier’s First Amendment rights was irrelevant to
the clearly-established-law inquiry.” Pet.App.20a. As
the panel explained, “judicial decisions concretely and
authoritatively define the boundaries of permissible
conduct in a way that government-employer training
never can.” Pet.App.28a. The district court thus erred
doubly by “denying the officers qualified immunity
based on the actual knowledge that they purportedly
gained from such non-judicial sources.” Pet.App.29a. 4
Finally, the Tenth Circuit agreed with the district
court that any First Amendment right to record the
police performing their official duties in public was not
clearly established, noting that “Frasier does not
assert that any on-point Tenth Circuit authority
provided clearly established law in August 2014
concerning his First Amendment retaliation claim,
and we are not aware of any.” Pet.App.31a. The court
rejected “Frasier’s attempt to distill a clearly
established right applicable here from the general
First Amendment principles protecting the creation of
4 The panel went on to hold that the district court erred in
denying qualified immunity to the officers with respect to
petitioner’s First-Amendment conspiracy-to-retaliate and
Fourth-Amendment conspiracy claims. See Pet.App.63a.

14
speech and the gathering of news” as “run[ning]
headfirst into the Supreme Court’s prohibition against
defining clearly established rights at a high level of
generality.” Pet.App.33a. The court further rejected
the notion that “these general constitutional
principles apply to these facts ‘with obvious clarity,’ …
such that reasonable officers in the defendants’
positions would have known that their conduct was
unlawful.” Pet.App.33a.
REASONS FOR DENYING THE PETITION
The Tenth Circuit applied straightforward and
long-settled principles, taken directly from this
Court’s precedents, to conclude that respondents are
entitled to qualified immunity because no clearly
established law prohibited the conduct of which they
are accused. That conclusion is correct, it does not
conflict with any decision of this Court or any other
court of appeals, and it does not warrant this Court’s
review.
Petitioner first asks this Court to decide
“[w]hether training or law enforcement policies can be
relevant to whether a police officer is entitled to
qualified immunity.” Pet.i. That highly general
framing artfully elides the critical question: Relevant
for what purpose? In the lower courts, petitioner
argued that the courts should consider such materials
to assess whether respondents subjectively knew that
their conduct was unlawful. But as the Tenth Circuit
correctly recognized, that argument is squarely
foreclosed by nearly four decades of this Court’s cases
expressly rejecting the notion that subjective
knowledge is relevant to the qualified-immunity
inquiry. Petitioner is thus forced to retreat to the (at

15
least somewhat) more modest claim that courts should
consider training to determine whether the law was
clearly established. But that argument is foreclosed
by this Court’s cases too, which have reiterated
repeatedly that the clearly established law inquiry
actually requires clearly established law.
It is little surprise, then, that petitioner cannot
identify any court of appeals decision that considered
training material either to demonstrate an officer’s
subjective knowledge or to obviate the need for onpoint cases. Instead, all he offers are cases in which a
court pointed to such evidence to buttress its bottomline conclusion after assessing what judicial precedent
did or did not establish (as this Court occasionally has
too). Not one of those cases deemed such materials
outcome-determinative, as the district court did here.
In the absence of any disagreement over whether
training can clearly establish the law or override the
objective reasonable-officer test, little would be
accomplished by resolving the rather abstract
question of whether courts would be better served not
to consider such materials at all. And even if this
Court were inclined to accept petitioner’s invitation to
overhaul these bedrock principles of its qualifiedimmunity jurisprudence, the Court would be far better
served to wait for a case in which the officers did in
fact “testif[y] that they knew they were violating [the
plaintiff’s] rights,” Pet.3, which most certainly did not
happen here.
Petitioner’s second question asks whether the
right to record police officers carrying out their duties
in public was clearly established in August 2014. But
every court of appeals to consider the issue has agreed

16
with the Tenth Circuit and the district court that this
right cannot be deemed clearly established by resort
to “[b]asic First Amendment principles” or the socalled “obviousness” doctrine. Indeed, the only court
of appeals that has ever held such a right to be clearly
established did so because, unlike the four other
circuits that have considered the issue, it already had
precedent recognizing a right to record the police.
Moreover, determining whether the right to
record the police was (or is) clearly established is
unlikely to have any impact on this case because what
matters for qualified-immunity purposes is whether it
was clearly established that the conduct alleged
actually violates the First Amendment. And as the
Tenth Circuit correctly recognized, even if reasonable
officers could be expected to derive the right petitioner
asserts from “[b]asic First Amendment principles,”
those principles certainly would not suffice to clearly
establish that anything respondents did violated the
First Amendment. Indeed, petitioner likely does not
even have a viable First Amendment retaliation claim
in the first place after this Court’s decision in Nieves,
as the district court explicitly found that respondents
had an objectively permissible basis for detaining him,
which renders any dispute over their subjective
motivations irrelevant under Nieves. But at a bare
minimum, Nieves plainly forecloses any argument
that it was clearly established that respondents’
alleged conduct violated the First Amendment. That
makes this an exceedingly poor vehicle for considering
either question presented, as respondents would still
be entitled to qualified immunity even if the Court
embraced both of petitioner’s arguments. The Court
should deny the petition in its entirety.

17
I.

The First Question Presented Does Not
Warrant This Court’s Review.
A. The Decision Below Faithfully Followed
Settled Supreme Court Precedent.

“‘Qualified immunity attaches when an official’s
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.’” City of Escondido v. Emmons,
139 S.Ct. 500, 503 (2019) (per curiam) (quoting Kisela
v. Hughes, 138 S.Ct. 1148, 1152 (2018) (per curiam),
and collecting cases). Under this Court’s precedents,
police officers “are entitled to qualified immunity
under § 1983 unless (1) they violated a federal
statutory or constitutional right, and (2) the
unlawfulness of their conduct was ‘clearly established
at the time.’” District of Columbia v. Wesby, 138 S.Ct.
577, 589 (2018) (quoting Reichle v. Howards, 566 U.S.
658, 664 (2012)). “‘Clearly established’ means that, at
the time of the officer’s conduct, the law was
‘sufficiently clear’ that every ‘reasonable official would
understand that what he is doing’ is unlawful.” Id. An
officer’s “subjective beliefs” are “irrelevant” to that
inquiry because the question is whether “a reasonable
officer could have believed” that the conduct “was
lawful.” Anderson, 483 U.S. at 641 (emphasis added).
Indeed, this Court expressly abandoned nearly
four decades ago the notion that an officer’s subjective
understanding of the law can be used to deprive the
officer of qualified immunity. See Harlow, 457 U.S. at
815-18. As the Court explained in Harlow, earlier
cases had indicated that “qualified immunity would be
defeated if an official ‘knew or reasonably should have
known that the action he took within his sphere of

18
official responsibility would violate the constitutional
rights of the [plaintiff], or if he took the action with the
malicious intention to cause a deprivation of
constitutional rights or other injury[.]’” Id. at 815
(quoting Wood v. Strickland, 420 U.S. 308, 322 (1975)).
But “the subjective element of” that test “frequently
ha[d] proved incompatible with [the Court’s]
admonition … that insubstantial claims should not
proceed to trial,” as “questions of subjective intent so
rarely can be decided by summary judgment.” Id. at
815-16.
The Court accordingly abandoned the
subjective element in favor of an inquiry that looks
solely to “the objective reasonableness of an official’s
conduct, as measured by reference to clearly
established law.” Id. at 818.
Consistent with those settled principles, the
Tenth Circuit began its qualified-immunity analysis
by canvassing existing law to determine whether the
right that respondents allegedly violated was clearly
established in either this Court or the Tenth Circuit
as of August 2014. After concluding that it was not,
the court declined to consider evidence of what
respondents were trained because, under Harlow,
“what the officer defendants subjectively understood
or believed the law to be was irrelevant with respect
to the clearly-established-law question.” Pet.App.20a.
The court accordingly rejected petitioner’s contention
(and the district court’s determination) that
respondents are not entitled to qualified immunity
even if their conduct did not violate clearly established
law because they were trained that the public has a
right to record the police.

19
Far from conflicting with this Court’s precedents,
that conclusion is compelled by them. Indeed, the
Court yet again explicitly rejected the argument that
actual knowledge can obviate the need for clearly
established law as recently as City and County of San
Francisco v. Sheehan, 575 U.S. 600 (2015). Just like
petitioner argued below, the plaintiff there argued
that the defendants were not entitled to qualified
immunity because they departed from their training.
Id. at 616. The Court rejected that argument out of
hand, explaining that “[e]ven if an officer acts contrary
to her training, ... that does not itself negate qualified
immunity where it would otherwise be warranted.”
Id. Petitioner does not even cite, let alone try to
distinguish, Sheehan.
Instead, petitioner retreats to an exceedingly high
level of generality, framing the question as “[w]hether
training or law enforcement policies can be relevant to
whether a police officer is entitled to qualified
immunity.” Pet.i (emphasis added). But petitioner
did not argue below that such evidence is relevant to
the clearly-established inquiry or any other aspect of
the objective reasonable-officer test. He did not try,
for instance, to use some robust body of training across
multiple jurisdictions to demonstrate that the right he
claims is common knowledge among law enforcement
officers. To the contrary, he admitted that “it may be
true” that “departmental policies and training cannot
clearly establish” the law, and argued that they should
be considered here only because they purportedly
establish that respondents actually “knew” that their
conduct was unlawful. CA10 Resp. Br. 36-37. And the
Tenth Circuit, in turn, did not declare such materials
“categorically irrelevant to the qualified-immunity

20
analysis.” Pet.15. It instead said only what petitioner
himself admitted: Such materials cannot be the
source of clearly established law. Pet.App.20a.
Petitioner tries to paint that conclusion as at odds
with this Court’s opinions in Hope v. Pelzer, 536 U.S.
730 (2002), and Wilson v. Layne, 526 U.S. 603 (1999).
See Pet.16-17. But neither of those opinions remotely
suggests that training materials can clearly establish
the law, let alone be used to deprive an officer of
qualified immunity based on his subjective knowledge.
Nor could they have since this Court has time and
again admonished that, “[t]o be clearly established, a
legal principle must have a sufficiently clear
foundation in then-existing precedent.” Wesby, 138
S.Ct. at 590 (emphasis added); see also, e.g., al-Kidd,
563 U.S. at 741 (“We do not require a case directly on
point, but existing precedent must have placed the
statutory or constitutional question beyond debate.”
(emphasis added)). 5 Consistent with that settled law,
Hope concluded that the conduct at issue did violate
clearly established circuit (and likely Supreme Court)
precedent. See Hope, 536 U.S. at 741-42. The Court
merely observed after doing so that training materials
“buttressed” its conclusion that “Respondents violated
clearly established law.” Id. at 744. That is a far cry
from embracing petitioner’s view that training alone
can be “outcome-determinative.” Pet.16.
In fact, this Court has not even said that the courts of appeals
can definitively state the contours of “clearly established law.”
See Emmons, 139 S.Ct. at 503 (“Assuming without deciding that
a court of appeals decision may constitute clearly established law
for purposes of qualified immunity ....” (citing Sheehan, 575 U.S.
at 614)).
5

21
Wilson is even less helpful to petitioner. There,
the Court determined that U.S. Marshals and local
police officers were entitled to qualified immunity
because no clearly established law forbid them from
bringing ride-along media correspondents into a home
during a search. In reaching the conclusion that the
officers’ conduct “was not unreasonable,” the Court
found it “important” that the nationwide ride-along
policy for Marshals effectively authorized the
complained-of conduct, and the local police ride-along
policy did not forbid it. 526 U.S. at 617. But the Court
explicitly observed that “[s]uch a policy, of course,
could not make reasonable a belief that was contrary
to a decided body of case law.” Id. In other words, the
Court made clear that law enforcement policies cannot
override clearly established law (or the absence
thereof) because focusing on what a defendant was
actually trained would be at irreconcilable odds with
the objective reasonable-officer test.
The Tenth
Circuit thus followed this Court’s precedent to a tee.
B. The Decision Below Does Not Conflict
With Any Decision Of Any Other Courts
Of Appeals.
Unsurprisingly given this Court’s repeated and
unambiguous holdings, petitioner fails to identify any
court of appeals that has embraced his view that
training materials alone can be used to deprive an
officer of qualified immunity. Instead, all he identifies
are cases that, like Hope and Wilson, invoked training
materials to buttress a bottom-line qualifiedimmunity conclusion that was grounded in case law.
For example, in Vasquez v. County of Kern, 949
F.3d 1153 (9th Cir. 2020), a corrections officer at a

22
juvenile detention facility repeatedly sexually
harassed a young woman detained there, including by
watching her shower. Id. at 1157. The Ninth Circuit
concluded that the officer’s conduct violated clearly
established law because, “[i]n this circuit, ‘[i]t is
clearly established that the Fourteenth Amendment
protects a sphere of privacy, and the most ‘basic
subject of privacy ... the naked body.’” Id. at 1165. To
be sure, the court went on to observe that the officer
“likely attended” training at which he was informed
that such conduct was prohibited. Id. But the court
nowhere suggested that the training alone could have
deprived him of qualified immunity even if the law
was not clearly established. Likewise, while the Ninth
Circuit maintained in Drummond ex rel. Drummond
v. City of Anaheim, 343 F.3d 1052 (2003), that
“training materials are relevant not only to whether
the force employed in this case was objectively
unreasonable, but also to whether reasonable officers
would have been on notice that the force employed was
objectively unreasonable,” it actually used those
materials only to buttress its conclusion that
“kneeling on the back and neck of a compliant
detainee, and pressing the weight of two officers’
bodies on him even after he complained that he was
choking and in need of air violates clearly established
law.” Id. at 1062 (citation and emphasis omitted).
The Eighth Circuit’s decision in Treats v. Morgan,
308 F.3d 868 (8th Cir. 2002), is much the same. While
the court posited that “[p]rison regulations governing
the conduct of correctional officers are also relevant in
determining whether an inmate’s right was clearly
established,” it considered those materials only after
determining that “[i]t is well-established that a

23
malicious and sadistic use of force by a prison official
against a prisoner, done with the intent to injure and
causing actual injury,” violates the Eighth
Amendment, and it emphasized that those regulations
tracked “cases warning against unreasonable or
punitive use of force.” Id. at 875. The court nowhere
suggested that training materials could obviate the
need for clearly established law or supplant the
reasonable-officer test.
Nor did any of the other cases petitioner cites. See
Pet.16. Each instead invoked training materials only
to reinforce a conclusion about what every reasonable
officer should have known from existing precedent.
See Raiche v. Pietroski, 623 F.3d 30, 38-39 (1st Cir.
2010) (finding that “existing case law or general
Fourth Amendment principles gave [the officer] notice
that” “tackling [plaintiff] from his motorcycle and
slamming him into the pavement would violate his
constitutional right to be free from excessive force,”
and then noting that officer’s conduct “depart[ed]
from” his “training”); Okin v. Village of Cornwall-onHudson Police Dep’t, 577 F.3d 415, 436-37 (2d Cir.
2009) (observing, after detailing circuit precedent
clearly establishing that officers’ conduct was
unlawful, that officers also failed to comply with
“extensive professional training”); Booker v. S.C. Dep’t
of Corr., 855 F.3d 533, 544, 546 (4th Cir. 2017) (finding
bottom-line conclusion “buttressed” by internal
policies after detailing “robust” body of cases);
Champion v. Outlook Nashville, Inc., 380 F.3d 893,
904 (6th Cir. 2004) (similar); Maye v. Klee, 915 F.3d
1076, 1087 (6th Cir. 2019) (finding that department
policy “[a]dditionally” supported conclusion that law

24
was clearly established where defendants had already
been enjoined from engaging in same conduct).
At most, then, petitioner identifies some mild
tension in the lower courts over whether training
materials have any role to play in the qualifiedimmunity analysis. But no court has embraced
petitioner’s extreme position that such materials can
be outcome-determinative or supplant the reasonableofficer test, and none of the cases petitioner invokes
even hints at the notion that the court would have
come out differently had it not considered them.
Accordingly, unless this Court intends to revisit the
rule that training cannot “negate qualified immunity
where it would otherwise be warranted,” Sheehan, 575
U.S. at 616, opining on whether the better part of
discretion is to not consider such materials at all is
likely to have little, if any, practical impact.
C. There Is No Good Reason To Overrule
Decades Of Precedent And Embrace
Petitioner’s Unworkable Rule.
Petitioner closes with a broad-scale attack on the
reasonable-officer test, effectively asking the Court to
jettison 40 years of precedent and resurrect a
subjective inquiry into whether an officer actually
knew that the alleged conduct was unlawful. Pet.2023. The Court should decline that invitation. As the
Court explained in Harlow, the basic problem is that
a subjective inquiry far too often “prove[s]
incompatible with [the Court’s] admonition … that
insubstantial claims should not proceed to trial,” as it
is simply too easy to allege that an officer knew her
conduct was unlawful. 457 U.S. at 815-16. Petitioner
offers no reason to think that dynamic has changed in

25
the intervening decades. In fact, the Court reiterated
the same concern just a few Terms ago, observing that
“[b]ecause a state of mind is ‘easy to allege and hard
to disprove,’ a subjective inquiry would threaten to set
off ‘broad-ranging discovery’ in which ‘there often is no
clear end to the relevant evidence.’” Nieves, 139 S.Ct.
at 1725 (citation omitted).
Even petitioner’s more modest effort to convert
training policies into “clearly established law” raises
many of the same concerns. In effect, petitioner would
supplant the “reasonable officer” test with a novel
“reasonable officer who received specific training” or
“reasonable officer who is subject to specific law
enforcement policies” test. Applying that highly factspecific standard would undermine the entire point of
the qualified-immunity doctrine, which is to avoid
societal costs such as “the expenses of litigation, the
diversion of official energy from pressing public issues,
and the deterrence of able citizens from acceptance of
public office.” Harlow, 457 U.S. at 814. If every
lawsuit triggered an obligation on the part of law
enforcement to produce reams of training documents
and sit for depositions about law enforcement policy,
that would thwart the goal of ensuring that
“insubstantial lawsuits” are “quickly terminated.” Id.
(alterations omitted). Just as problematic, it would
“Balkanize the rule of qualified immunity” in precisely
the way that Justice Scalia warned of (and rejected) in
Anderson. See 483 U.S. at 645-46.
In all events, even if this Court were inclined to
consider overhauling its entire qualified-immunity
jurisprudence, this would be an exceedingly poor
vehicle for doing so, as this case does not actually

26
present an instance of “officers who know that their
conduct is unconstitutional.” Pet.21. Contrary to
petitioner’s claims, respondents never “testified that
they knew they were violating petitioner’s rights.”
Pet.3. They simply explained that they understood
that the public has a right to record the police, and
that they wanted the footage petitioner recorded
because it could be important evidence. Compare, e.g.,
A228-29 (Detective Bauer: “I learned early on that
you can film the police, and there’s nothing against
that as long they don’t interfere with an
investigation.”) with A231 (Detective Bauer Dep.) (Q:
“Why did you want to know what device Levi Frasier
had been using to film?” A: “To use for against [sic]
the case on Mr. Flores.” Q: “And how would it have
been evidence in the case against Mr. Flores?” A:
“Him filming with the sock being in his mouth.”).
Merely knowing that there is a right to record the
police is manifestly not the same thing as knowing
that particular conduct violates the First Amendment.
Petitioner’s attempt to conflate those two distinct
inquiries flouts this Court’s repeated admonition that
“the clearly established right must be defined with
specificity.” Emmons, 139 S.Ct. at 503.
The “crucial question,” then, is “whether the
official acted reasonably in the particular
circumstances that he or she faced.” Plumhoff v.
Rickard, 572 U.S. 765, 779 (2014). As the Tenth
Circuit correctly recognized, see Pet.App.33a, 38a, the
answer to that crucial question is plainly yes. In fact,
it is highly doubtful that petitioner has even alleged a
viable First Amendment claim after this Court’s
decision in Nieves, which came down after the district
court denied respondents’ motion for summary

27
judgment. See infra p.29-30. At the very least, Nieves
should foreclose any argument that petitioner has
alleged a violation of clearly established law. All of
that makes this an exceptionally poor for
reconsidering this Court’s long-standing rule that an
officer’s subjective knowledge is not relevant to the
qualified-immunity analysis, as abandoning that rule
is unlikely to have any ultimate impact on this case.
II. The Second Question Presented Does Not
Warrant This Court’s Review.
Both the unanimous Tenth Circuit panel and the
district court concluded that any right to record the
police in public was not clearly established in August
2014. See Pet.App.13a-14a; Pet.App.31a-38a. That
conclusion is correct and does not conflict with the
decisions of any other court. To be sure, every court of
appeals to opine on the question has held that such a
right exists, subject to reasonable time, place, and
manner restrictions. See Glik v. Cunniffe, 655 F.3d 78,
82-85 (1st Cir. 2011); Fields v. City of Philadelphia,
862 F.3d 353, 360 (3d Cir. 2017); Turner v. Driver, 848
F.3d 678, 688-89 (5th Cir. 2017); ACLU of Ill. v.
Alvarez, 679 F.3d 583, 603 (7th Cir. 2012); Fordyce v.
City of Seattle, 55 F.3d 436, 439 (9th Cir. 1995); Smith
v. City of Cumming, 212 F.3d 1332, 1333 (11th Cir.
2000). But every circuit presented with the question
of whether that right was already clearly established
before the court expressly recognized it concluded that
it was not. See Kelly v. Borough of Carlisle, 622 F.3d
248, 262 (3d Cir. 2010); Fields, 862 F.3d at 362;
Szymecki v. Houck, 353 F.App’x 852, 853 (4th Cir.

28
2009) (per curiam); Turner v. Driver, 848 F.3d 678, 687
(5th Cir. 2017). 6
Petitioner tries to gin up a circuit split by pointing
to the First Circuit’s decision in Glik v. Cunniffe, 655
F.3d 78 (2011). But Glik held that arresting someone
for recording the police violated clearly established
law because, unlike those other circuits, the First
Circuit had “previously recognized” in an earlier case
“that the videotaping of public officials is an exercise
of First Amendment liberties.” Id. at 83. That is not
a circuit split; it is just the inevitable consequence of a
test that (at least under the law of most lower courts)
looks to both Supreme Court and circuit precedent to
assess whether the law was clearly established. There
is no reason to think the First Circuit would have
reached the same conclusion if, like the Tenth Circuit,
see Pet.App.35a-36a, it did not have any precedent on
point when it decided Glik. Indeed, several of
petitioner’s amici appear to agree that the right to
record police performing their official duties in public
is not clearly established even today, for they urge this
Court to recognize it in this case. See, e.g., First
Amendment Scholars Amicus Br. 2-3; Cato Amicus Br.
21-22.
Petitioner insists that all of these courts have
been wrong to look for some precedent actually dealing
with whether the public has the right to record the
police because “[b]asic First Amendment principles”
suffice to render that right clearly established. Pet.286 In Kelly v. Borough of Carlisle, the Third Circuit declined to
determine whether such a right exists so when the court decided
Fields v. City of Philadelphia, there was still no clearly
established law. See 862 F.3d at 357.

29
31. But no court of appeals has embraced that
argument, and with good reason. To be sure, this
Court has found in “extreme circumstances” that
“general constitutional principles established in the
caselaw may give reasonable government officials fair
warning that their conduct is constitutionally or
statutorily unlawful.” Pet.App.19a. But the rare
cases in which it has done so did not involve efforts to
recognize a constitutional right for the first time.
They involved egregious violations of a long-settled
right, such as handcuffing a shirtless inmate to a
hitching post in the blazing sun all day as punishment,
Hope, 536 U.S. at 741, or intentionally housing an
inmate in “deplorably unsanitary conditions” for
nearly a week, Taylor v. Riojas, 141 S.Ct. 52, 53 (2020)
(per curiam). Even taking the facts in the light most
favorable to petitioner, his allegations come nowhere
close to “the level of blatantly unconstitutional
conduct necessary to satisfy the obviousness
principle.” O’Doan v. Sanford, 991 F.3d 1027, 1044
(9th Cir. 2021) (Bress, J.).
Indeed, if anything should be obvious at this
point, it is that petitioner has not even stated a viable
First Amendment retaliation claim after this Court’s
decision in Nieves. Considering the question before
Nieves was decided, the district court concluded that
the retaliation claim could go forward because there
“are genuine disputes of material fact regarding
whether defendants’ actions were substantially
motivated by a desire to retaliate against Mr. Frasier
for recording the arrest.” A1127. But the purportedly
retaliatory “actions” the court identified all involved
the officers’ alleged detention of petitioner while they
attempted to obtain the footage that he falsely denied

30
recording. A1126. Yet the court expressly (and
correctly) “f[ou]nd and conclude[d]” that any “seizure
was a permissible investigatory detention because
Officer Evans had reasonable suspicion based on
articulable facts that Mr. Frasier made a false report
to the police.” A1022-23. Under a straightforward
application of Nieves, a retaliation claim plainly
cannot go forward on the basis of an officer’s subjective
motivation for a constitutionally permissible seizure.
See Nieves, 139 S.Ct. at 1725 (holding that a
“particular officer’s state of mind is simply ‘irrelevant,’
and … provides ‘no basis for invalidating an arrest’”
supported by probable cause).
At the very least, respondents would remain
entitled to qualified immunity on the ground that it
was not clearly established law that anything they did
actually violated the First Amendment. As the Tenth
Circuit correctly recognized, see Pet.App.33a, the
ultimate question in the qualified-immunity analysis
is not just whether an abstract constitutional right
was clearly established, but whether “the law was
‘sufficiently clear’ that every ‘reasonable official would
understand that what he is doing’ is unlawful.” Wesby,
138 S.Ct. at 589-90. Perhaps petitioner’s question
presented might suffice to answer that question in a
case like Glik, where the plaintiff concededly was
arrested for the offense of “unlawful audio recording
in violation of Massachusetts’s wiretap statute.” 655
F.3d at 80. But petitioner has never even tried to
identify any case that would put all but the “plainly
incompetent,” Mullenix v. Luna, 136 S.Ct. 305, 308
(2015), on notice that briefly detaining an eyewitness
who has just lied about being in possession of
important video evidence and telling him that “‘we

31
could do this the easy way or the hard way’ while
gesturing toward the back of a police car,” A1126, is
forbidden First Amendment retaliation. Accordingly,
there is little reason to think that resolution of the
second question presented would have any impact on
the ultimate resolution of this case, which is all the
more reason to deny the petition in its entirety.
CONCLUSION

For the foregoing reasons, this Court should deny
the petition.
Respectfully submitted,
KRISTIN M. BRONSON
Counsel of Record
DENVER CITY
ATTORNEY’S OFFICE
201 W. Colfax Avenue
Denver, CO 80202
(720) 913-3107
kristin.bronson@denvergov.org
Counsel for Respondents
October 7, 2021

